cu z a m

No.

2n®&e

Supreme Court of tfje fKntteb State*
CHERYL D. UZAMERE AS SOLE PROPRIETOR OF
UZAMERE WORD PROCESSING & MORE
Petitioner,
v.

THE STATE OF NEW YORK, ET AL.
Respondents.
On Petition For A Writ of Certiorari
To The United States Court of Appeals
For the Second Circuit
APPENDIX A
Cheryl D. Uzamere
Appearing Pro Se
Uzamere Word Processing
& More
1209 Loring Avenue
Apt. 6B
Brooklyn, NY 11208
Tel.: (929) 225-8837
Fax: (929) 225-8827
cheryl. uzamer_e@uzamere
w_ordpr_OLC.essing.ne_t

TABLE OF CONTENTS
U.S. Court of Appeals
19-3825-cv dated April 10, 2020

3

U.S. Court of Appeal
19-3402-cv dated October 24, 2019

4

U.S. District Court Bar Order
19-cv- 9064................................

5-7

U.S. District Court Dismissal
19-cv-9064................................

8 - 12

2
iu e 2 n o

cuzam

Case 19-3825, Document 56,04/10/2020,2817368, Paged of 1

SDNY.-NA’C,
)P-cv*!>044

McMahon. C-J.

United States Court of Appeals
F0.1XKS

SECOND CIRCUIT
At a stated term of Hie United States Court of Appeals for Hie Second
Circuit, held at the Thurgood Marshall United States Courthouse, 40 Foley Square,
in the City of New York, on the 103* day ofApril, two thousand twenty.
Present:
Susan L. Camey,

Richard J, Sullivan,
Joseph F, Bianco,
Circuit Judges.
Cheryl D. U2amtre, individually and as the Sole Proprietor
ofUzamere Word Processing and more,
Plaintiff-Appellant,
v.

19-3825

State of New York. etal.
Defendanls-Appellees,
Michael Moseberg, et at,,
Defendants.
Appellant moves for declaratory and injimctive relief. Upon due consideration, it is hereby
ORDERED that die appeal is DISMISSED because it “lacks an arguable basis either in law or in
fact.** Neit-M v. Williams. 490 US, 319,325 (1989); see also Pillff v. INS. 45 F,3d 14,17 (2d
Cvr. 1995) (per curiam). It is further ORDERED that the motion* are DENIED as moot,
FOR THE COURT:
Catherine O'Hagan Wolfe, Clerk of Court

3

Case 19-3402, Document 15,10/24/2019,2688583, Pagel oJ 1

MAN D7HEL.

OF APPEALS

At a Stated Term of the United States Court of App eats for the Secotri Circuit, held at the
Thnrgood Marshall United States Courthouse, 40 Foley Square, in the City of New Yorfc, on the
24& day of October, two thousand and nineteen.

Cheryl D. Uzamere. individually and as the
Sole Proprietor of Uzamere WordProcessing ORDER
and more,
Docket No. 19-3402
Plaintiff-Appellant,
v.
State of New York, eta!.,
Defendants-Appellees.
Appellant, pro se, moves to withdraw her appeal and for other relief.
IT IS HEREBY ORDERED that the request to withdraw is GRANTED. Die requests for
other relief are DENIED as moot.
For the Court!
Catherine O'Hspan Wolfe,
Clerk of Court

m

GtlUu*

A True Copy
Catherine O'Hagan WgJfeS&rk

V

Urated States Com

Second Circuit

MANDATE ISSUED ON 10/24/2019
4

11192113

cuz

Case l:19-cv-09064-CM Ooctiment 12 Filed 10/22/19 Page lot 3

UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF NEW YORK
CHERYL D. UZAMERE.
Plaintiff,

19-CV-9064 (CM)

-against-

BAR ORDER UNDER
2S U.SC. §1651

THE STATE OF NEW YORK, et al„
Defendants.
COLLEEN McMAHON, Chief United States District Judge:

Plaintifffiled this pro sc action arising from her 1979 marriage to and subsequent
abandonment by her husband, Ehigie Edobor Uzamete. On October 15,2019, the Court
dismissed the complaint as frivolous, noted that Plaintiff had fried multiple frivolous or vexatious
federal and state>court actions concerning her marriage and abandonment, and directed Plaintiff
to submit a declaration setting forth good cause why the Court should not issue an order barring
her from filing further civil actions informpauperis (IFP) in this Court without prior
permission.
Plaintiff filed a 203-page declaration on October 17,2019, but she fails to preside any
reason why the Court should not impose a bar order.
DISCUSSION
Plaintiff does not provide any reasons why the Court should not impose a bar order, but
rather argues the merits other complaint. To the extent that Plaintiffs declaration could be read
as seeking reconsideration ofthe Court's order of dismissal, the Court liberally construes the
submission as a motion under Fed. R_ Civ. P. 59(e) to alter or amend judgment and a motion
under Local Civil Rule 6.3 for reconsideration, and, in the alternative, as a motion under Fed. R.
Civ. P. 60(b) for relief from a judgment or order. See Tmstman k Fed. Bureau ofPrisons. 470
Fid 471,474 (2d Or. 2006); see also Tracy v. Fmlmaler. 623 Fid 90,101 (2d Cir. 2010) (The

5

Case l:19cv-09064-CM document 12 Filed 10/22/19 Page 2 of 3

solicitude afforded to pro re litigants takes a variety of forms, including liberal construction of
papers, “relaxation of die limitations on ilie amendment ofpleadings,” leniency in the
enforcement of other procedural rules, and “deliberate, continuing efforts to ensure that a pro re
litigant understands what is required of him") (citations omitted),). Because Plaintiff does not
demonstrate that the Court overlooked any controlling decisions or factual matters with respect
to the dismissed action, her request for reconsideration under Fed, R, Civ, P. 59(e), Local Civil
Rule 6.3, and Fed. R. Civ, P. 60(b) is denied.
Further, Plaintiff fails to provide any reason not to impose a bar order. Rather, she uses
die Court's order to show cause as another opportunity to continue her pattern of abusive and
vexatious litigation, providing a barrage of papers and documents concerning perceived
injustices in other forums. The Court therefore bars Plaintiff from filing any future civil action in
this Court IFF without first obtaining from the Court leave to file,
CONCLUSION
The Clerk of Court is directed to mail a copy of his order to Plaintiff and note service on
the docket. The Court bars Plaintiff from filing future civil actions IFP in this Court without first
obtaining from the Court leave to file. See 2S U.S.C. § 1651. To obtain leave to file, Plaintiff
must submit to the Court a motion captioned “Application Pursuant to Court Order Seeking
Leave to File.” Plaintiffmust also attach a copy of her proposed complaint and a copy of this
order to any motion seeking leave to file. The motion must be filed with the Pro $e Intake Unit
of this Court If Plaintiffviolates this order and files an action without a motion for leave to file,
the Court will dismiss the action for failure to comply with tins order.
Plaintiff is further warned that the continued submission of frivolous documents may
result in the imposition of additional sanctions, including monetary penalties. See Id The Clerk
of Court is further directed to terminate all other pending matters and to close this action,
2

6

in e z n a

c u z a rn

Case l:19-cv-09064-CM Document 12 Filed 10/22/19 Page 3 of 3

The Court certifies, pursuant to 2$ U.S.C, § 1915(aX3)> that any appeal from this order
would not be taken in good faith and therefore informa pauperis status is denied for the purpose
of an appeal. Cf Coppcdge v: United Status, 369 U.S, 438,44445 (1962),
The Clerk of Court is directed to docket this as a “written opinion’* within the meaning of
Section 205(a)(5) ofthe E-Government Act of2002,
SO ORDERED.
Dated: October 22,2019
New-York. New York
COLLEEN McMAHON
Chief United States District Judge

3

7

Case l:19-cv-09O64-CM Documents Filed 10/15/19 Page lot7

UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OK NEW YORK
CHERYL D. UZAMKRK,
I9-CV-9064 (CM)

Plaintiff,

ORDER OF DISM ISSAL AND
TO SHOW CAUSE UNDER
28 U S.C. § I6SI

-againstTHE STATE OF NEW YORK, el al,
Defendants.

COLLEEN McMAHON, Chief United States! District Judge:
Plaintiff, appearing/wo sc, brings this action arising from her 1979 marriage to and
subsequent abandonment by her husband, Elugic Edobor Uzamcrc. She alleges that Defendants
participated in a massive conspiracy to deprive Iter of her rights. By order dated October 1,2019,
flic Court granted Plaintiff's request to proceed without prepayment of fees, that is, informa
pauperis (1PP). The Court dismisses the complaint for the reasons set forth below. Within thirty
days of the date of this order. Plaintiff must submit a declaration setting forth good cause why the
Court should not impose a bar order,
STANDARD OF REVIEW
The Court must dismiss an informa pauperis complaint, or portion thereof, that is
frivolous or malicious, fails to state a claim on which relief may be granted, or seeks monetary
relief from a defendant who is immune from such relief. 28 U.S.C. § 1915(c)(2)(B); .we
Livingston v, Atlitvmhck Bmrage Co., 14) F,3d 434,437 (2d Cir, 1998). While the law
mandates dismissal on any of these grounds, the Court is obliged to construe pm sc pleadings
liberally, Harris v. Mills, 572 F.3d 66, 72 (2d Cir. 2009). and interpret them to raise the "strongest
(claims) that they suggest," Tiiestman v. Fed. Bureau ofPrisons, 470 F,3d 471,474 (2d Cir.
2006) (internal quotation marks and citations omitted).

8

ut e z n a

cuzam

Case l:19-cv-09Q64-CM Document 9 Filed 10/15/19 Page 2 of 7

A claim is frivolous when it "lacks an arguable basis either in law or in fact." Ifeitdv it
Williams, 4% U.S. 319,324-25 (1989), abrogated on other gmtttds hy Bell All. Carp, it
Ttrombly, 550 U.S. 544 (2007); see aha Denton v. Hernandez, 504 US. 25,32-33 (1992)
(holding that "finding of factual frivolousncss is appropriate when the facts alleged rise to the
level of the irrational or (he wholly incredible'*); Livingston it Adirondack Beverage Co., 141
l:Jd 434,43 7 (2d Cir. 1998} ('jAJii action is ‘frivolous’ when either: (1) the factual contentions
arc clearly baseless...; or (2) the claim is based on an indisputably meritless legal theory.")
(internal quotation marks and citation omitted)
BACKGROUND
Plaintiff submits to the Court a 205-page complaint with 540 pages ofexhibits. She
names as Defendants the Slate of New 3'oi k. the New York State Attorney General, state-court
judges and officials from New York, officials of the New York State Department of Health, and
employees of the Social Security Administration Office in Brooklyn. New York. Plaintiff does
not dearly state what her claims are or the underlying facts in support ofher claims, but her
assertions and exhibits make it clear that this action is a continuation of her indefatigable efforts
to litigate matters arising from her marriage and abandonment by her husband.
Plaintiff has brought multiple federal and state court actions concerning her marriage and
abandonment In 2069, she filed a civil rights action in the Southern District of New York in
which she named many of the same defendants as in this action. See Uzttmene v. Allen E. Kaye,
P.C, ECP 109-CV-3506,2 (S.D.N.Y. April 2,2009). appeal dismissed, No, 09-1600-cv (2d Cir,
June 24,2009), cert, denied, 558 U.S. 965 (Oct. 13,2009). That ease was dismissed on immunity
grounds and for lack of subject matter jurisdiction, See Veamesv, ECP I :O9-CV-3506.3, The
Court also warned Plaintiff that should she continue to file complaints related to her husband, she
may be barred from filing future complaints without fust seeking leave of Conn, Id, at fi.
2

9

Case l:19-cv-09064-CM Document 9 Filed 10/15/19 Page 3 of 7

Plaintiff las also filed at least three related actions in the United States District Court for
the Eastern District of New York. See Uzameiv is Cuomo, No, II-CV-2831 (E.P.N.Y. June 22,
201!) {dismissed as frivolous and malicious; noted Plaintiff’s “long, tired history of vexatious
litigation" in that court), appeal dismissed, No. I l-2713-cv {2d Cir. Nov, 28,2011), cert denied,
565 U.S. 1264 (Mar. 19,2012); Uxmm u Kkc, No, OH-CV-Wl (NGG) (E.D.N.Y. July 6,
2007) (dismissed for failure to state a claim); Ummere v. Doe, No. 07-CV-2471 (Ij.D.N.Y. July
6.2007) (dismissed for lack of subject matter jurisdiction). The Eastern District has also warned
Plaintiff about continuing to file frivolous complaints, noting her “long, tired history ofvexatious
Implicit" in that court. See Vzumere, No. t I-CV-2S3I (ECF No, 3 at 2).
Undeterred by her unsuccessful litigation in the New York courts, Plaintiff also filed
actions in the United States Court of Federal Claims and the United States District Court for the
District of Rhode Island. In 2010, Plaintiff filed three actions in the Court of Claims complaining
about iter mistreatment by various courts and about her husband’s misconduct. She withdrew flic
first complaint, but the court consolidated the remaining two actions and dismissed all of Iter
claims for lack of subject matterjurisdiction. See Uzamctr v. United States, Nos. 10-S8SC, 10591C. 2010 WL 3528*97 (Fed. Cl. Sept. 3,2010). In 2013, Plaintiff filed another voluminous
complaint: in the District of Rhode Island, alleging judicial misconduct, fraud, and an overall
conspiracy to violate her rights. That court, noting Plaintiff’s litigation history, dismissed the
action on a slew of grounds, including immunity, resjudicata and collateral estoppel, the
Ranker-Feldman doctrine, and statute of limitations. Sec Uzameiv u United States, No. 13-505S,
2013 WL5781216 (D.R.l. Oct. 25,2013), tiff'd, No. 13-2454 (1stCir. Apr. II, 2014), cert,
denied, 135 S, Ct. 451 (Nov. 3,2014). The District of Rhode Island also warned Plaintiff against
the filing of additional frivolous lawsuits. See Uzttmcre, 2013 WL 57*1216, at *18.

3

10

ut e z n o

cuzam

Case l:19-cv-09064-CM Document 9 Filed 10/15/19 Page 4 ol 7

DISCUSSION
Even when read with the " special solicitude" due pm se pleadings, Trkstmmt, 470 E3d
at 474-75, Plaintiff's voluminous complaint must he dismissed m frivolous. She is again
attempting to bring claims about her marriage, husband's abandonment of her, and her multiple
efforts to seek relief from federal and state courts. Plaintiff’s complaint is frivolous, rising to the
level of the irrational, and there is no legal theory on which site can rely. See Denton, S04 U.S. at
33; Uvmpstm, 141 P.3d at 437,
District conns generally grant a pm se plaintiff an opportunity to amend a complaint to
cure its detects, but leave to amend is not required whet® it would be futile. See Hill »>. Cun tone.
657 F.3d 116.123-24 (2d Cir. 2011); Saklmddin v, Cuomo. 861 F,2d 40,42 ad Cir. 1988).
Because this action is a continuation of Plaintiff's pattern of vexatious litigation, the Court
declines to grant Plaintiff leave to amend,
ORDER TO SHOW CAUSE
As noted above. Plaintiff has a history of filing frivolous and malicious actions. The
Southern District and other federal courts have warned her about the consequences of continuing
to file such cases. In light of this litigation hislory, Plaintiff is ordeted to show cause why she
should not be barred from filing any further actions in this Court 1PP without first obtaining
permission from this Court to file her complaint. See Monte,s v. Barkley, 147 F,3d 207.208 (2d
Cir. 1998) (per curiam) ("The unequivocal rule in this circuit is that tire district court may not
impose a filing injunction on a litigant sun sptmte without providing the litigant with notice and
an opportunity to He heard."). Within thirty days of the date of this order, Plaintiff must submit to
this Court a declaration setting forth good cause why the Court should not impose this injunction
upon her. If Plaintiff fails to submit a declaration within the time directed, or if Plaintiffs
declaration does not set forth good cause why this injunction should not be entered, she will be
4

11

Casei:19-cv*090S4*CM Documents Filed 10/15/19 Page5of7

bailed from filing any further actions Ih'P in this Court unless she first obtains permission from
this Court to do so.
CONCLUSION
Hie Clerk of Court is directed to mail a copy of this order to Plaintiff and note service on
the docket. The complaint, filed informa pauperis under 28 U.5.C. § 1915(a), is dismissed as
frivolous. See 28 U.S.C. § 191S(e)(2){BHi). All other pending matters are terminated.
Plaintiffshall have thirty days to show cause by declaration why an order should not be
entered barring her from filing any future action in forma pauperis in this Court without prior
permission. A declaration form is attached to this order.
The Court certifies, pursuant to 28 U.S.C. § 1915(a)(3), that any appeal from this order
would not be taken in good faith, and therefore informa pauperis status is denied for the purpose
of an appeal. See Coppetlge n United States, 369 U.S, 438,444-45 (1962).
The Clerk of Court is directed to docket this as a •‘written opinion" within the meaning of
Section 205(a)(5) of the K-Govemment Act of2002.
SO ORDERED.
Dated:

October IS,2019
New York, New York
COLLEEN MeMAHON
Chief United States District fudge

5

12

ui c z n 3

Additional material
from this filing is
available in the
Clerk's Office.

